RB# AJ33174

IN THE COUNTY COURT OF OMAHA» DOUGLAS COUNTY, NEBRASKA
/

s-.-

STATE OF NEBRASKA)

)
COUNTY OF DOUGLAS)

AFFIDAVIT AND APPLICATION
FOR ISSUANCE OF A SEARCH WARRANT
FOR CELLULAR PHONE RECORDS

The complaint and affidavit of Officer Derek MOIS #1573, on this 14 ' day of February,
2017, who, being first duly sworn, upon oath says:
That the officer has just and reasonable grounds to believe, and does believe that there is
concealed or kept as hereinafter described, the following property, to wit:

A. The following customer or subscriber accoiint information for each account registered to
or associated with the following number(s); 402-850-5695, for the time period between

the dates of Thursday December 1st 2016 and Tuesday February 14th 2017:
1. Subscriber naines, user names, screen names, or other identities;
2. Mailing addresses, residential addresses, business addresses, email addresses, and
other contact information;
3. Local and long distance telephone connection records, or records of session times
and durations;

4. Length ofser/ice (including start date) and types of services utilized;
5. Telephone or instrument number or other subscriber number or identity, including
any temporarily assigned network address;
6. Means and source of payment for such service (including any credit card or baiik
account number) and billing records.
/,

B. All records and other infonnation rela'ting to aecount(s) and time period in Part A,
includi.ng:
1. Records of user activity for any connectioiis made to or from the account,
including the date, time, length, and method of connections, data ti'ansfer volume,
user name, and source and destination Internet Protocol address(es);
2. Telephone records, mcluding caller identification records, cellular site and sector
information, global positioning system (GPS) data, Per Call Measurement Data
(for Voice, SMS, Text Message, and Data), Reveal Report, roaming data, real
time data (RTD), utilization of other networks data, and cellular network

identifying information (such as the IMSI, MSISDN, IMEI, MEID, or ESN);
3. Non-content information associated with the contents of any communication or
file stored by or for the account(s), such as the source and destination email
addresses and IP addresses;

4. Correspondence and notes of records related to the account(s).
5. Cellular site and sector guide, for the time period requested above.

That said property is concealed or kept in, on, or about tlie following described placp!|y@Brson,
to wit: CRIM/TRAF DiVJSION
US Cellular
Oue Pierce Place, Suite 800
Rasca, Illinois 60143

That said property is under the control or custody of:

FEB 8 1 2017
DOUGtS^SittcOUOT
'OMMi^.m.i&ASKA

j^ppWix 5

Custodian of Records

That the following are the grounds for issuan.ee of a search warrant for said property and
the reasons for tlie officers' belief to wit:

On December 23rd 2016 at approximately 1741 hours Omaha Police Officers were dispatched to
.1,8139 Tanimy Trail, Omaha, Douglas County, Nebraska in reference to the report of a shooting.
Upon arrival Officers located a male victim identified as Michael R. BRINKMAN (W/M DOB:
09/17/1966) with a gunshot woimd to the chest. BRJNKMAN was transported to the University
of Nebraska Medical Center where he later died asa result of his injuries.

Officers determined at the time of the shooting event the victim was home with his girlfriend
Km MILIUS (W/F DOB: 12/20/1971) and his son Seth BRINKMAN (W/M. DOB: 11/08/2000).
MILIUS would state that at approximately 5:30 pm the victim and their soni Seth were getting
ready to go out to eat when she answered a knock at the door. MILIUS would state when she
answered the door and would be confronted by two unidentified masked suspects armed with
guns who began demanding money. MILIUS stated one suspect was a black male about 5'10" to
6'0" in height, heavy set with a "thick neck" and stubble on his face. MILIUS would state this
suspect was approximately 220 to 250 pounds. MILIUS stated the second suspect was a black
male and described him as being taller and lighter than the first suspect. MILIUS described this
suspect as being approximately 6'0" to 6'3" and approximately 1 80 pounds.

Seth BRINKMAN would state at approxim.atel.y 5:30 pm he was taking a shower preparing to go
out to dinner with his parent when he heard his mother screaming. Seth would state he would
eome to see two intruders armed with handguns. Seth would describe one suspect as being a
black male approximately 6'0" to 6s 1" in height and being heavy set with a big gut and wearing
a mask. Seth would describe the second suspect as being approximately 6' 1" to 6'2" and having
a thimier build than the first suspect.

During the subsequent scene investigation Investigators would locate items determined to have
been dropped by one of the suspects during the physical altercation with the victim. Investigators
and Forensic In.vestigations personnel would locate remnants of fast food and packaging items,
including a partially eaten piece of bread. Forensic Technicians would collect a swab for possible
DNA from the bread under EV#20.

During a canvass of the neighborhood Officers located exterior cameras on 18230 Tai-nmy Trail,
InvGstigators were able to determine those cameras did cover the victim's residence. Crime lab
personnel were able to recover footage from that system which upon review did capture what
appeared to be a newer model white SUV traveling eastbound on Tainniy Trail and pull into
18139 Tammy Trail parking facing westbound at 5:33 pin at the victim's residence(just prior to
the shooting event). Video then captures the same vehicle leaving at approximately 5:41 pm.

Video also shows what appears to be the saiTie vehicle slowed in front of the '^^i^^^DQl^JSJON

4:55 pm continues eastbound into the circle, turn around and drive back by 18139 Tammy Trail
at 4:56 pm. FE:321ZQ17
"Cterkpfepurt

DOUGtA S CO U ,-'•:: Y CgUKI'

GMAhft.t'iE.BtASKA

Investigators beJieye.tie veMide inthe video, isa wfa.iife 2015-201:6 Dodge DurangQ SUV.
Investigators believed from prior experience tliat it was possible suspects coiild have used a
rented vehicle while committing this crime.

On December 27 2016 EV#20, the possible DNA swab collected from the pailially eaten bread,
was submitted to UNMC Human DNA Laboratory for testing.

On December 28th 2016 Qfficer CAI-IILL served a subpoena to Budget Car rental requesting
information relafed to any leased 2016 Dodge Diu-ango SUV in the Omaha area during the time

frame of December 23rd 2016. Budget Car rental would return information that included a rental
agreement to a Carnell WATT (B/F DOB: 03/17/1979) of a 201.6 Dodge Durango SUV bearing

Texas plates GSB-1580 from tiw dates of December 13th 2016 to December 27U1 2016 (Rental
Agreement; AVIS RA 608359032). Affiant Officer observed within the provided renfal
agreement that WATT provided a contact number of 402-739-4520.

On January. 14th 2017 Officer CAHILLwould conduct an interview with WATT. WATT would
acknowledge renting the aforementioned 2016 Dodge Durango SUV from Avis/Budget on

December 13th 2016. WATT would also state that during the course of her having that vehicle
she loaned the vehicle out on multiple occasions to family and fi-iends. WATT would state one of
those people was an acquaintance by the name of "Lee JENNINGS".

On January 23 2017 Investigators were notified of a mainly single source male DNA profile
was located fi-om testing ofEV#20.

On January 27 2017 the UNMC Human DNA Laboratory submitted their findings to the
Nebraska State Patrol for CODI'S entry and search.

On February 13, 2017 Investigators were notified of a possible CODIS identifieation to the
submitted sample was that belonging to LeAndre R. JENNINGS III (B/M DOB: 09/30/1987).
On February 1.3, 2017 subsequent research iitilizing the NCJIS database, Affiant Officer
observed that JENNINGS has a physical of 6' and being approximately 300 pounds. Affiant
Officer also observed that JENNINGS was currently on US Probation beginning 04/10/2015.
Affiant Officer observed JENNDMGS was currently assigned to the Omaha US Probation Office
under Officer Mike SLIVA. Affiant Officer spoke to Officer SLIVA mid he woiild provide a
current cell phone number for JENNINGS of 402-850-5695. Affiant Officer learned this nuinber
is also cun-ently assigned to US Cellular.

Affiant Officer believes data held by Sprint Corporation will aid in determining the possible

relationship between the aforementioned individuals and provide details on the events which lead
to the death of Michael R. BRINKMAN.

When cell phones are used they create a digital record of the user's activity. This i^le^mtdata

can come 'from data produced by the operator when they input infom-tationFfeIAfell as
incoiispicuous data files which are created and saved automatically ;^)R|^/^^6.Diy|@§OM
mformation can remain stored on the device for multiple years provided there has not been

intervention which removes the data. Even some data which has been deleted can bejecQy^gd

using forensic tools. FEB

From training, experience and research Affiant Officer j^s aware that the data on cgjl^p^q^es can
provide invaluable insight for criminal investigations. Cell phones are usedcfe

^.

access to m&nnafion, socialization, researc]i,entertEunment shopping and other fuHetionality. In
additian to personal xise, cell phones are ofien used as tools in eriminal activity. Affiant Officer
is aware of numerous instances where cell phones were used by participants in crimes to
commimicate via voice and text messagmg, occasions when they took photographs of themselves
with weapons and/or illegal narcotics, times when they created videos of their criminal activity
and instances when the Internet was used to reseffl-ch crimes they participated in, just to name a
few. As such a cell phone can serve both as an. instrument for committing a crime, as well as a
storage mediimi for evidence of the crime.
Cell phone data can assist investigators in determining the culpability of participants in criminal
investigations. This is because the data can potentially provide a wealth of infomiation that can
assist in determining the niotivation, method aiid pai-ticipants involved in an incident.
Information on the devices can provide invaluable iiisight to the who, what, when, where and
why an incident occurred.

Because most operations can be performed on a cell phone almost instantly data can be created
in a matter of moments which would be gennane to the incident being investigated. The data can
be created intentionally or accidently by the user, or automatically by the device itself as a part of
its regular functioning. Affiant Officer seeks to complete a comprehensive and unbiased
examination of the data on the device for information which could aid in the investigation;
seeking only prescribed information would jeopardize the completeness of the search as it is
typically imlaiown how the cell phone was used or the techi-iical ability and intent of the user
before the device has been examined.

The below exainples are only a sample of the mai-iy ways a cell phone can assist investigators
and types of data which are being sought by Affiant Officer. A full all-inclusive list would be
impossible due to the ever-increasing development of cell phones and their applications.
• Phone infonTiation., configurations, calendar events, notes and user account information
which can be used to identity .or confirm who owns or was using a cell phone. Because of their
small size, cell phones can easily be passed from one person. As such it is necessaiy to document
evidence that reveals or suggests who possessed or iised the device, This evidence is akin to the
search for venue items when executing a search warrant at a residence.
Call logs which establish familiarity between people involved in an incident. These
records are consistently stamped wiUi dates and times which can be significant regarding the
reconsti-uction of the tunelme of events regarding an investigation. Associated eontact lists stored
in the device can provide names to con-espond with voice calls as well as other forms of
communication. This information can also be invaluable to establish, conspirators, witnesses and
suspect infoiTnation.
Communication records from SMS and MMS messaging, chats, .instant messages and EMails can provide invaluable insight to establish an individual's level of culpability and

knowledge regarding an investigated incident. It is not uncommon for users to send and receive
dozens and even hundreds of messages a day which dQcumenf the person's activities and can aid
in eompleting an investigation.

Data from associated supplemental software applications (apps), both standard and
manually installed, stored on the cell phone can denionstrate the user's associafion with
investigated people, locations and events. Cell phones have the ability to run apps which allow
them to increase'their functionality. Common programs mclude social media applications such as

Facebook and Twitter as well as messaging applications Kik and I-Iello SMS to name|.^|fgQ
These applications are increasingly used^as alternative methods for users to co^M^tj^y^^'|

the standard messaging service as they offer additional ftinctionality. Many oft&e^%SlI%tloft
<-

are able to deteiTnine tlie. user's geographic location which caii be instrumental to completing an
investigation. FEB 2 1 2017

Media files such :as images, videos, audio and documents which provide a first-hand

dQcumentatipn of actions regarding an event Additionally files can contain emb^^lte^||ta^t
^TOiiIIT7
that show additional information which is valuable to investigators such as when aiadtaJKiS-fliiiLeAs

file;-was created. Cell phoms'have the ability, to creal.e, store and exchange media,with other
devices and computers,
'v»-

Internet browsing liistoiy including bookmarks, browser cookies and other associated

cache files stored on cell phones can demonstrate the planning or desire to participate in a crime
by documenting the viewing ofwebsites associated with the incident.
Cell tower connections, GPS data WiFi, Bluetooth and synchronization logs can associate
the cell phone with being in proximity of a location or other digital, devices. Viewing of this data
can demonstrate that the device, and thus also its user, was in a location associated with m
incident.

The user dictionary on a phone contains user inputted entries such as names and
uncommon words. Presence of tliese records can demonstrate familiarity with the crime being
investigated.
Affiaiit Officer believes there to be pertinent information contained within the requested records
and request that tl-us Court issue a search warrant for the information provided in Part A and Part
B which is stored with US Cellular, for the commimications data froin the aforementioned

phone number will aid in ascertaining the location of the subscriber for phone number(s) 402850-5695 and confirm the identity of the subscrlber(s).
WHEREFORE, the officers pray that a Search Warrant may be issued according to law.

C:M^
Omaha Police Officer

SUBSCRIBED AND SWORN tQ me this 14ultilday of February, 2017.

Judge of the Douglas County Court

FILED
CRIM/TRAF DIVISION
FEB 2 12017
,;C)ork of Court

DOUGLA ; couMr*ycourcr
OMAhn. j4B»AASKA

^

RB#-AJ33174

IN THE COUNTY COURT OF OMAHA, DOUGLAS COUNTY, NEBRASKA
STATE OF NEBRASKA )

)

SEARCH WARRANT FOR
CELLULAR PHONE RECORDS

COUNTY OF DOUGLAS)

TO: OMAHA, NEBIIASKA POLICE OFFICER Derek MOIS #1573.

This matter came on for hearing on the 14 1 day of February, 2017, upon the sworn
applicafion and affidavit for issuance of a search warrant of Officer Derek MOIS, and the Court,
being fully advised in the premtses finds as follows:
That the Court has jurisdiction of this matter pursuant to the Sections 29-812, Nebraska
Revised Statutes; 1943, as amended.

That based upon the sworn affidavit and application of issuance of a search warrant of Officer

Derek MOIS dated the 14 day of February, 2017, that there is probable cause to believe that
located at US Cellular, an electronic communications service provider as defined by 18 U.S.C.
§2510(15) and Nebraska Revised Statute 86-277, AND/ORthe authorized or designated agent
for the custodian of records of the eleetronic communications service provider, the following
described records and other iiiformation for the following number(s); 402-850-5695, to-wit:
A. The following customer or subscriber account information for each account registered to
or associated with the following number(s); 402-850-5695, for the time period between

the dates of Thursday December 1st 2016 and Tuesday February 14th 2017:
1. Subscriber naines, ussr names, screen naines, or other identities;
2. Mailing addresses, residential addresses, business addresses, email addresses, and
other contact information;.
3. Local and long distance telephone conneetion records, or records of session times
and durations;

4. Length of service (including start date) and types of services utilized;
5. Telephone or instrument number or otlier subscriber number or identity, includmg
any temporarily assigned ne^ork address;
6. Means and source of payment for such service (including any credit card or bank
account number) and billing records.
B. All records .and other information relating to account(s) and time period in Part A,
including:
1. Records of user activity for any connections made to or from tlie account,

including the date, time, length, and method of connections, data transfer volume,

user name, and source and destination Internet Protocol address(es); pjj

2. Telephone records, including caller identification records, cellular site ifi3 ?§eqt^p pj
mformation, global positioning system (GPS) data, Per Call Measurement Data

(for Voice, SMS, Text Message, and Data), Reveal Report, roaming data, real--, 3 ^
time data (RTD), utilization of other networks data, and cellular network

identifying information (such as the IMSI, MSISDN, IMEI, MEID, or ^^^^fc^^

3;. Moa-content iafomidtioa associated with the contents Qfany Gommufiicatfen or
file stored by or for the aeco'ynt(s), such as: the source and destmation email
addresses and IP addresses;

4. Correspondence and notes of records related to the accQimt(s).
5. Cellular site and sector guide; for the time period requested above.
The Coui-t finds that the applicant has offered specific and articulable facts showing that
there are reasonable grounds to believe that the records or other inforniation sozight are relevant
and material to an ongoing criminal investigation.

AND, if found, to seize and deal with the same as provided by law, and to make return of this
warrant to me within ten days after receiving the requested information set forth in Part A and
Part B.

YOU ARE, THEREFORE, ORDERED, pursuant to Title 18, United States Code, Section
2703(d) that US Cellular will, within fourteen (14) days of the date of this Order, turn over to
the Omaha, Nebraska Police Department the records aiid other information as set forth in Part A
and Part B.

IT IS FURTHER ORDERED, that any other person, device, computer, and/or number
that is in communication with the target device shall be considered part of the criminal
investigation and shall require the disclosure of the data in Part A and Part B from any provider
of electronic communications services as defined by 18 U.S.C. §251Q(15) and Nebraska Revised
Statute 86-277. This shall also. include the target device roaming or utilizing any electronic

communications service provider's netwoi-k and/orantemias, regardless ofcan'ier or provider,
IT IS FURTHER ORDERED that US Cellular or any other persoiVcompany, shall not disclose
the existence this Order of the Court, or the existence of the investigation, to the listed subscriber
or to any other person, unless and until aiithorized to do so by the Court.
IT IS FURTHER ORDERED, that execution of the Search Wan-aiit be forthwith during
the daytime hours.

IT IS FURTHER. ORDERED, that Omaha, Nebraska Police Officer Derek MOIS,
make return of this Search Warrant to me within ten days after receiving the requested
information from the electronic commu.nications service provider.

Given under my hand this 1.4th day of February, 2017.

,^4^ ——

^^

Judge of the Douglas County Court

FILED
CRIM/TRAFDiVtStON
FEB 3 1. 2017
;CicA5f Court,

DQUOLA'. COIW'YCOURT
OMAhn.i'&AnASKA

RB#AJ33174

RETURN AND INVENTORY
STATE OF NEBRASKA )
)SS
COUNTY OF DOUGLAS )

Officer .Derek MOIS #1573, being first duly sworn, deposes and says that, on Tuesday

February 14 * 2017,1 served the within warrant and made a diligent search for the property
described therein at the place, or person, mentioned therein, and seized and am in possession of
the following described property, to wit:
See Attached Property Reports

Said property was inventoried in the presence of N/A, and a copy of said Warrant was

given to/left with One Pierce Place, Suite 800, Itasca, Illinois 60143.
DATED tills 21st day of February, 2017.

^T5
-a-<5maha Nebraska Police Officer

SUBSCmBED AND SWORN TO before me this 21st day of February, 2017.
Warrant and inventory returned on this 21st day of February, 2017.
^

Judge of the Douglas County Coiirt
RLED

CRiM/TRAF DlVtStON

FEB 2 1 2017
•C}t;rl(lof<;uurt.

DOUGLAS^COUNJYJCOURT
'OMAH.^ NEBRASKA

